                                                                              NATIONAL SCIENCE FOUNDATION
                                                                               OFFICE OF INSPECTOR GENERAL
                                                                                 OFFICE OF INVESTIGATIONS

                                                                      CLOSEOUT MEMORANDUM

Case Number: A04090058



                         This case opened in September 2004 when an NSF Program Manager (PM) forwarded to us an
                         email with an allegation of research misconduct and notification of an institution's investigation.'
                          The complainant's2 email to the PM informed her he had been unable to replicate some
                         experimental results of his post-doctoral researcher (the s ~ b j e c t ) .Based
                                                                                                    ~     on the failed
                         replication, the complainant withdrew two papers (the papers) on which the subject was the lead
                         author. He informed their institution4of the allegation, which concluded there was enough
                         substance to warrant an investigation.
             The subject's research was not directly supported by his NSF grant,5 but the grant was used for
-i7      l.f some materials and the papers acknowledged this supporti:~The                     c'omplainant told the PM the
t -y ,lNational Institute of Health (NIH)            was also being notifieddas?itsiipported the subject's research.
-a .,h:. t Bedause of the joint funding of NIH and NSF, this case.was handled jointly with the Office of
 :. , -\:,Research Integrity (ORI), with OWas.Qe lead.6,' .' .-,:-""            ,     + ; . ;-2: -E',.:, L':" p";t;Lp:" .
                                                                                                                   7'                 I       ,         ,..$           u


                                                   -                                         ' . ) , t . ! .
                                                                                                                     u

             '   7
                             e.:..   %      .         .,:.'-
                                                          >
                                                                  I
                                                                              - . :?;
                                                                                  ' I                                 ,. i ,      I


&:h~~r~s?pa$        of the iniestigati'oli, t h e - s u b j k c 8 h i ; e d L a n ~ i ~ d e p e n d e n t G 1 a ' . bher        t ~ e I.!;*
                                                                                                                          ~ r aresulti.            . j;:
;::i~d?k.nT.he*~orhmittee                                                     -
                             coordili~te&~with8j0~~a1-~dit0f~s'o~the~tliree~~~i'~n'ti~t's~~hb~h~&~evie~ed
                                                                                       e                                                -.i$;.r:    i -i
:!*>?.\:papkrs could review theL1ab'sreplicatibn effokts: l;~hd'th;6e,revi6$ers disdgxeed.whether the                                      .... -..-
                                                                                                                                                    -   3      .

                                                                                                                                                                       .
     $ .irifilicatedresults suppo$ed the ~riginal.~dattiahd              interpr$ation:' $; ,, , ' :+                    .'               '   5 ',                 1




                 1   ,
                                              -. ,
                                               > !   *   :    ~       ~   "   5            x
                                                                                            '+'!'
                                                                                               L    t
                                                                                                   ,ir
                                                                                                         '
                                                                                                              .               C
                                                                                                                                  * .
  :i~':~-Aftdrr   the institution finished its investigation &d correspondence;witli.the iubject, its
      ;  -..investigation Committee concluded the allegation was irresblvab'lebecausethere wasn't enough                                                .
                         evidence to reach a definitive conclusion. The adjudicator (the institution's President) concluded
                         the evidence did not support a finding and closed the investigation.
      .$,-  We concur with the Committee adjudicator and, accordingly, this' case is closed. We reminded
 .          the institution of NSF's requirements for grantee's to keep research records, including data, for 3
            years after the submission of its final report:7 We admonished the subject about her poor record
         . "keeping,which the Committee found unacceptably poor, and encouraged her to improve the
            quality and quantity of her research data she records and keeps. We concur with the Committee
            in that if her records had been better, the allegation might have been avoided or at least resolved
            more definitively.




      -i                 5
                         6                                                                                   1 p




                         'Grant Policy Manual 111, 350a
